U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

American Hospital Association, et al. v. Xavier Becerra, Secretary of
Health and Human Services, No. 20-1114

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 10,
2021, and placed on the docket on February 12, 2021. The government’s response is now due,
after one extension, on April 14, 2021.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of
time to and including May 13, 2021, within which to file a response for all respondents.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1114
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
NORRIS COCHRAN, ACTING SECRETARY OF
HEALTH & HUMAN SERVICES, ET AL.

THOMAS R. BARKER
FOLEY HOAG LLP
1717 K STREET, NW
WASHINGTON, DC 20036-5342
202-261-7310
TBARKER@FOLEYHOAG.COM
CHAD GOLDER
514 6TH STREET, NE
WASHINGTON, DC 20002
CHADGOLDER@GMAIL.COM
WILLIAM B. SCHULTZ
ZUCKERMAN SPAEDER LLP
1800 M STREET, N.W.
SUITE 1000
WASHINGTON, DC 20036-5807
202-778-1800
WSCHULTZ@ZUCKERMAN.COM
ANDREW S.M. TSUI
GREENBERG TRAURIG, LLP
2101 L STREET N.W.
WASHINGTON, DC 20037
202-331-3172
TSUIA@GTLAW.COM

DONALD B. VERRILLI, JR.
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVENUE, NW
SUITE 500E
WASHINGTON, DC 20001-5369
202-220-1101
DONALD.VERRILLI@MTO.COM

